Report No. D-2007-111         July 9, 2007





   Uniform Standards for Customer Wait Time

  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932.
                        Ideas and requests can also be mailed to:
                        ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                           400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-4704




Acronyms
CWT                   Customer Wait Time
GAO                   General Accountability Office
QMD                   Quantitative Methods Directorate
UIC                   Unit Identification Code
                               INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                                July 9,2007

MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE FOR
                 LOGISTICS AND MATERIEL READINESS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               NAVAL INSPECTOR GENERAL

SUBJECT: Report on Uniform Standards for Customer Wait Time

         (Report No. D-2007-111)



        We are providing this report for review and comment. The Marine COlPS
Logistics Command did not respond to the draft report. Even though not required, the
Army, Office ofthe Deputy Chief of Staff, G-4 sent comments that concurred with the
recommendations. The complete text ofthe comments is in the Management Comments
section of the report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, we request that the Marine Corps Logistics Command to provide comments
on Recommendation 2. by August 9, 2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audros@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Thomas S. Bartoszek at (703) 604-9619 (DSN 664-9619) or Mr. John W. Hemyat
(215) 737-3883 (DSN 444-3883). The team members are listed inside the back cover.
See Appendix E for the report distribution.

                               By direc7)Y'b~heDeputy :nsp ec::rGe:ler:lfor Auditing:

                                       j!C~,L~.~
                                           Wanda A. Scott
                                           Assistant Inspector General
                                           Readiness and Operations Suppoli
                Department of Defense Office of Inspector General
Report No. D-2007-111                                                        July 9, 2007
   (Project No. D2005-D000LD-0129.000)

                 Uniform Standards for Customer Wait Time

                                 Executive Summary

Who Should Read This Report and Why? Logistics personnel affiliated with the
customer wait time metric for DoD should read this report. This report evaluates the
DoD efforts to implement a standard for customer wait time; specifically, the report
discusses the actions that the Army and Marine Corps took to establish, measure, and
evaluate a customer wait time metric.

Results. DoD officials established business rules, defined goals for measuring customer
wait time, and reported customer wait time metrics from 2001 to 2005. Further, the
customer wait time days reported to DoD by selected Army and Marine Corps units
during the fourth quarter of FY 2005 were generally accurate. However, the customer
wait time metric did not allow DoD officials to effectively measure the link between
customer wait time and operational availability of equipment. Consequently, officials do
not know how the customer wait time for high priority items will affect operational
readiness. If the Customer Wait Time Committee were to require the Services to report
customer wait time performance for high priority requisitions separately, then DoD could
attempt to link customer wait time to operational readiness. Also, if the Marine Corps
Logistics Command were to submit only transactions initiated at the organization level to
DoD officials, that action would provide DoD officials with uniform results for
measuring customer wait time. See the Finding section of this report for detailed
recommendations. The Managers’ Internal Control Program that we reviewed was
effective in that we did not identify any material management control weaknesses.

Management Comments and Audit Response. We received comments from the
Principal Assistant Deputy Under Secretary of Defense (Logistics and Materiel
Readiness) who concurred with Recommendation 1.a. He stated that the Services submit
high priority transactions separately and they have built a drill down tool that defines
high priority requisitions as those that have an urgent need. The tool is now fully
operational. The Principle Assistant Deputy Under Secretary partially concurred with
Recommendation 1.b. He stated that while customer wait time and operational readiness
are two of the Department’s key metrics, customer wait time for spares is a small piece of
what affects operational readiness. Therefore, determining the affect of customer wait
time on readiness is not feasible. However, customer wait time and operational readiness
will continue to be a key DoD metric and each will be analyzed as part of the overall
logistics performance metrics framework. Although not required to comment on
Recommendation 2., the Principle Assistant Deputy Under Secretary stated that customer
wait time is the time it takes from customer order to receipt regardless of who fills the
order. Therefore, both retail and wholesale transactions are included in the metrics.

Although not required to comment, the Army, Office of the Deputy Chief of Staff, G-4,
concurred with the recommendations. She stated that the Army already submits high
priority requisitions but does not currently measure customer wait time metrics by
separating high priority and routine requisitions. She also stated that the Army is
working a process to target inventory that is based on readiness. In addition, the Army is
reviewing the feasibility of reviewing fill rates by weapon system.

The draft report was issued on January 25, 2007. The Marine Corps Logistics Command
did not respond to the draft report.

Although the Principle Assistant Deputy Under Secretary’s comments concurred with
Recommendation 1.a. and partially concurred with Recommendation 1.b., his planned
action was not responsive. Concerning Recommendation 1.a., the Principle Assistant
Under Secretary did not address revising the business rules to define high priority
requisitions. For Recommendation 1.b., the Principle Assistant Under Secretary stated
that determining the effect of customer wait time on readiness is not feasible. However,
he also stated that customer wait time and operational readiness will be analyzed as part
of the overall logistics performance metric. His response did not indicate how his
analysis would tie CWT to operational readiness We considered the Principle Assistant
Deputy Under Secretary’s comments on Recommendation 2. and changed the final report
to clarify the measurement of customer wait time.

We request that the Principal Assistant Deputy Under Secretary of Defense (Logistics
and Materiel Readiness) and the Marine Corps Logistics Command provide comments by
August 9, 2007. See the Finding section of the report for a discussion of management
comments and the management comments section of the report for the complete text of
the comments.




                                            ii
Table of Contents 

Executive Summary                                                                  i


Background                                                                         1


Objectives                                                                         2


Finding
     Measuring Customer Wait Time                                                  3


Appendixes
     A. Scope and Methodology                                                     10 

     B. Army and Marine Corps Organizations Included in the Sample                12 

     C. Customer Wait Time Process, Sample Methodology, and Results               16 

     D. Quantitative Plan and Statistical Analysis and Interpretation for the 

          Army and Marine Corps                                                   19 

     E. Report Distribution                                                       28 


Management Comments
     Principal Assistant Deputy Under Secretary of Defense (Logistics and
         Materiel Readiness) Comments                                             31 

     Department of the Army                                                       33 

Background 

    Supply Chain Management. Supply chain management is a series of individual
    processes and activities that are used to purchase, produce, and deliver items and
    services to the warfighter. The goal of supply chain management is to deliver the
    “right items to the right place at the right time.” In 1990, the General
    Accountability Office (GAO) identified the DoD inventory management
    processes or supply chain management as “high risk” because of long-standing
    problems, such as excess inventory levels, inadequate internal controls, and cost
    overruns, all of which affect the supply chain support to the warfighter.

    Performance Measurements. The DoD Logistics community determined in
    1993 that measuring the time it took to deliver materiel to customers would be a
    key performance measure for monitoring supply chain effectiveness. Using data
    that were readily available from the Defense Automated Addressing Service
    Center, Defense Logistics Agency, DoD captured transactions that were
    transmitted through the wholesale logistics system, which helped to analyze the
    time the customers spent waiting for materiel. The measurement was called
    logistics response time and measured the time that elapsed from the date the
    customers requisitioned materiel until the date they received it through the
    wholesale logistics system. However, the logistics response time did not include
    inventories of materiel that the Services pre-position at local supply organizations.
    Also, it did not distinguish between requisitions for maintenance organizations
    and the requisitions for replenishing existing inventory levels.

    In the DoD FY 2000 Logistics Strategic Plan, senior DoD logistics leaders agreed
    that DoD needed to develop a new way to measure logistics response time that
    included the requisitions or transactions from maintenance organizations that the
    local supply organizations filled. The new measurement, termed “Customer Wait
    Time (CWT)” would become a key DoD performance metric. It measured
    “order-to-receipt time” for spare and repair parts that organization-level
    maintenance organizations submit. These organizations are responsible for
    maintaining assigned equipment including inspecting, servicing, lubricating,
    adjusting, and replacing parts, minor assemblies, and subassemblies. The current
    CWT metric was not intended to measure transactions generated by organizations
    above the maintenance level for the replenishment of stock.

    Requisition Priority Designator. On July 8, 2005, in an effort to remove supply
    chain management from the GAO high-risk classification, DoD issued a plan to
    correct weaknesses in three key areas: forecasting supply requirements,
    distributing materiel, and asset visibility. According to GAO representatives, the
    DoD plan was a good start; however, they thought it should also answer questions
    such as, “Does DoD have the ability to demonstrate progress in implementing
    corrective measures?” In answering this question, GAO officials reported that the
    DoD plan included some metrics for supply chain management that included
    CWT. The DoD goal under the plan was a CWT of 20 days.




                                          1

Objectives 

           The overall audit objective was to evaluate DoD implementation of standards for
           measuring CWT. Specifically, we reviewed the actions of the DoD CWT
           Committee to determine whether it developed uniform business rules for
           measuring and reporting CWT. In addition, we evaluated the rules and process
           that the Services and the Defense Logistics Agency used to determine whether
           they measured, evaluated, and reported on CWT. We also reviewed the
           management control program as it related to the overall objective. See
           Appendix A for a discussion of the audit scope and methodology.

Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996,1 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance programs are
           operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of management controls and management’s self assessment over supply
           chain management. Specifically, we reviewed the methodology used to compute
           and report CWT for the Army and Marine Corps organizations included in the
           audit. We limited our review to the Army and Marine Corps organizations
           because the Army processed the highest number of CWT transactions during
           FY 2005, approximately 76 percent, and the Marine Corps reported the highest
           number of CWT in days. Specifically, we reviewed the procedures for computing
           and reporting CWT.

           Adequacy of Management Controls. The Army’s methodology for computing
           and reporting CWT agreed with established DoD business rules. However, the
           business rules need to reemphasize the importance of linking CWT to the
           operational availability of equipment. Furthermore, the Marine Corps did not
           consistently apply the DoD business rules when computing and reporting CWT
           because they included wholesale-level transactions in their computations.
           However, because the Marine Corps represents a relatively small portion
           (2 percent) of the total CWT requisitions, we do not consider this to be a material
           weakness.




1
    Office of Management and Budget Circular No. A-123, “ Management’s Responsibility for Internal
    Control,” December 21, 2004, provides updated internal control standards and new requirements for
    conducting management’s assessment of internal controls over financial reporting. Revised OMB Circular
    No. A-123 became effective in FY 2006. Subsequently, DoD canceled DoD Directive 5010.38 and
    issued DoD Instruction 5010.40 “Managers’ Internal Control Program Procedures,” January 4, 2006.


                                                     2

           Measuring Customer Wait Time 

           DoD officials established business rules, defined goals for measuring, and
           reported CWT metrics from 2001 to 2005. Further, the CWT days that
           selected Army and Marine Corps units reported to DoD during the fourth
           quarter of FY 2005 were generally accurate. However, the CWT metric
           did not allow DoD officials to effectively measure the link between CWT
           and the operational availability of equipment. This condition occurred
           because CWT business rules required the Services to compute and report
           all transactions that maintenance organizations generated, regardless of
           whether the transaction was a routine or a high priority request.
           Consequently, DoD officials are not able to determine how high priority
           items affect the Services’ operational readiness.

CWT Criteria
    DoD Instruction 4140.61, “Customer Wait Time and Time Definitive
    Delivery.” The Principal Under Secretary of Defense for Acquisition,
    Technology, and Logistics issued DoD Instruction 4140.61, December 14, 2000.
    The Instruction included guidance on policy and procedures and assigned
    responsibilities for establishing CWT standards throughout DoD. The Instruction
    also defined CWT as a measurement of total elapsed time between the issuance of
    a customer order and the satisfaction of the order. The Deputy Under Secretary of
    Defense (Logistics and Materiel Readiness) established a CWT Committee to
    develop and maintain a set of business rules to measure performance and report
    CWT, to develop a CWT measure, and to establish CWT performance goals.
    Officials could then compare CWT performance to the goals and identify trends
    and improvements. The CWT Committee included members from each Military
    Department and the Defense Logistics Agency.

Business Rules for Measuring CWT, Goals and Reported
  CWT Metrics
    CWT Business Rules. The Deputy Under Secretary of Defense (Logistics and
    Materiel Readiness) commissioned a CWT Committee to develop a
    comprehensive set of business rules to measure and report CWT and link CWT
    performance to readiness indicators for spare and repair parts. In December 2000,
    the CWT Committee established business rules for measuring CWT based on
    “order-to-receipt time” for spare and repair parts that maintenance organizations
    submit. A maintenance organization is one that generally performs maintenance
    on its assigned equipment. Maintenance consists of inspecting, servicing,
    lubricating, and adjusting, as well as replacing parts, minor assemblies, and
    subassemblies.

    The CWT Committee also developed a methodology for calculating CWT that
    used the total elapsed time, expressed in days, between the customer request and
    the order being filled, specifically by subtracting the date entered on the request
    document from the date recorded on the receipt document. The CWT goals
    measured transactions initiated at the organization level. Each month, the

                                          3

           Services submitted their summary CWT performance information to the Defense
           Automated Addressing Service Center, Defense Logistics Agency, which
           compiled the data and made the information available to DoD Components
           through a web-based environment.

           The rules also stated that, as a first step toward linking readiness to CWT, the
           Services would collect a readiness rate and a CWT each month, analyze the
           strength of the relationship, and then discuss the results with the CWT
           Committee. Senior DoD Logistics leaders subsequently approved the business
           rules at a meeting of the Logistics Reform Senior Steering Group2 in FY 2000. In
           FY 2001, the Services began collecting and reporting their CWT to DoD using
           those business rules.

           CWT Goals and Reported CWT for FY 2002 to FY 2005. Although the
           Services began to report their CWT results as early as FY 2001, it was not until
           2003 that DoD officials established CWT goals to measure CWT improvements.
           DoD officials did not establish a CWT goal for FYs 2001 and 2002 because they
           could not determine a reasonable, attainable goal. For FY 2003, DoD officials
           used 16 days as the DoD CWT goal and 15 days for FY 2004 and FY 2005. DoD
           officials were unable to explain or provide documentation to support how they
           developed the CWT goal in 2003 and how it evolved in 2004 and 2005.
           The CWT results reported from FY 2002 through FY 2005 was a roll-up of each
           Service’s reported CWT for all requisitions completed during the year. Table 1
           shows the average CWT days reported by the Army and Marine Corps from
           FY 2002 through FY 2005 and the goals that DoD established for each year
           except 2002.
                            Table 1. Average CWT Days and DoD Goals
                                FY02          FY03          FY04          FY05
                             Actual/Goal Actual/Goal Actual/Goal Actual/Goal

               Army         17/None              22 /16           26/15           24/15
               Marine Corps 19/None              22 /16           27/15           36/15

           Table 1 shows that the Army and Marine Corps CWT days were higher than
           established goals. DoD officials attributed the increase to demand for critical
           items and the delays to closing transactions for Operation Iraqi Freedom. Marine
           Corps officials also attributed the increase to delays in posting closed transactions.
           Army officials attributed the CWT increase from FY 2002 through FY 2004 to an
           increase in transactions submitted by National Guard units and attributed the
           decrease in FY 2005 to establishing in-theater supply lines and reusing
           equipment within theater.




2
    The Logistics Reform Senior Steering Group comprises the Deputy Chief of Staff for Logistics of each
    Service; the Director, Defense Logistics Agency; the Commander, Transportation Command; the Deputy
    Under Secretary of Defense (Logistics and Materiel Readiness); and the Director for Logistics, Joint
    Staff.


                                                    4

CWT Reported for the Fourth Quarter of FY 2005 

    The Army and Marine Corps reported, and our sample verified, that the CWT
    information submitted to DoD was generally accurate. A statistical sample of
    2,100 closed CWT transactions processed during the fourth quarter of FY 2005
    showed that the average for CWT days was actually better than that being
    reported to DoD for selected Army and Marine Corps organizations. We selected
    the Army because it processed most of the requisitions during the fourth quarter
    of 2005, and the Marine Corps because it had the highest average CWT days
    among all the Services. See Appendix B for the list of Army and Marine Corps
    organizations in the sample. The Services processed 3,163,473 requisitions
    during the fourth quarter of FY 2005; the Army submitted 2,385,664 requisitions
    and the Marine Corps submitted 64,705 requisitions for a total of 2,450,369 or a
    combined total of 77 percent. The remaining requisitions were attributed to the
    Navy and Air Force. See Appendix C for the CWT process used by the Army and
    Marine Corps, our sample methodology, and the results.

    Army Sample. For the 22 Army organizations included in our review, we
    projected the actual CWT of 15.08 days compared to the 15.90 days that the
    Army reported to DoD. We identified that the difference was caused by delays in
    processing and posting receipt documents. In addition, based on our statistical
    sample at a 90 percent confidence level, the actual CWT was between the
    projected low of 13.66 days and the high of 16.83 days. We did not consider that
    the difference between our CWT calculations and the CWT that the Army
    reported to be material. See Appendix D for the Quantitative Plan and Statistical
    Analysis and Interpretation for the Army.

    Marine Corps Sample. For the 75 Marine Corps organizations included in the
    review, the actual CWT reported was 25.84 days, excluding transactions for
    customers above the organizational level, compared to the 31.58 days reported to
    DoD. Based on our statistical sample, we are 90 percent confident the actual
    CWT was between our projected low of 21.85 days and the high of 26.83 days.
    See Appendix D for the Quantitative Plan and Statistical Analysis and
    Interpretation for the Marine Corps.

    We noted that the difference between our sample results and those of the Marine
    Corps was attributed primarily to delays in closing transactions, and although the
    Marine Corps Logistics Command’s CWT calculations included requisitions for
    customers above the organizational level, it did not materially affect the CWT
    calculation.

    The CWT Committee’s business rules did not intend CWT transactions to apply
    to customers above the organizational level. The Marine Corps Logistics
    Command should report the CWT days only for transactions initiated at the
    organizational level.




                                         5

Measuring the Link Between CWT and Operational
 Availability of Equipment
    DoD officials could not link CWT to operational readiness because the CWT
    business rules included all requisitions in the CWT calculations, and did not
    separate the high priority requisitions from the routine requisitions.
    DoD 4000.25-1-M, “Military Standard Requisitioning and Issue Procedures,”
    dated April 28, 2004, provides overall guidance for preparing and submitting
    requisitions along with using priority designators. A requisition is an order for
    materiel initiated by an organization and transmitted to a supply source. The
    requisition provides the supply source with various types of information, such as
    the priority designator and required delivery date, some of which describe how
    important the item is to mission readiness.

    Composite CWT Data Related to Operational Readiness. When the CWT
    Committee established business rules for measuring CWT, it directed the Services
    to collect readiness rates and CWT measurements each month and compare them.
    The business rules also said that DoD would not require readiness reports until the
    Services and the CWT Committee discussed the Services’ findings and the
    relationship between readiness and CWT. The Army and Marine Corps routinely
    collected and analyzed readiness and CWT rates, but did not discuss or provide
    their correlation analysis to DoD officials because the CWT performance by itself
    does not show true operational readiness. Other areas such as maintenance are
    key in defining the operational readiness of equipment.

    The Army and Marine Corps processed about 2.45 million high priority and
    routine requisitions from July through September 2005. Each requisition had a
    two-position numeric code from 01 through 15 that designates the priority of
    competing requisitions. The priority designator alerts the supply organization on
    the urgency of the requested materiel. Customers use a priority designator code
    of 01 as the highest level of priority and 15 as the lowest priority code. In
    addition, if a particular item is causing a piece of equipment to be “not mission
    capable,” the customer can further code the requisition to show that the item is
    affecting readiness because the equipment cannot perform its assigned operational
    mission.

    The Services are aware of readiness and criticality of parts at the maintenance
    organizations; however, the CWT business rules as currently structured do not
    require the maintenance organization to report requisitions that affect the
    operational readiness of equipment. The CWT business rules require the Services
    to report the number of days to fill the requisition; they do not require the
    Services to report the CWT separately by priority designator, which would more
    closely link CWT performance to readiness.

    Table 2 shows that of the 1,782 requisitions in our judgmental sample in the
    fourth quarter of FY 2005, 901, or approximately 51 percent, were high priority
    requisitions that directly affected the operational readiness of the equipment. We
    selected all requisitions with a high priority code of 01 to 03.




                                         6

                  Table 2. CWT Sample of High Priority Requisitions

                                           Closed
                                           Requisitions High
                                           Sampled      Priority
                   Army                    1,093         693
                   Marine Corps              689         208
                     Total                 1,782         901

    The average CWT days for the Army’s 693 high priority transactions was
    approximately 18 days, or 3 days more than the DoD goal of 15 days. For the
    Marine Corps’ 208 high priority transactions closed during the fourth quarter of
    FY 2005, the average CWT was 23 days, or 8 days more than the DoD goal.

    If DoD officials revised the CWT business rules to define high priority
    requisitions and required the Services to submit the transactions separately to the
    Defense Automated Addressing Service Center, Defense Logistics Agency,
    calculating CWT days for high priority requisitions would enable DoD to see how
    CWT performance links to readiness and allow officials to monitor trends and
    anomalies that directly affect the operational readiness of equipment.

Tracking Trends in Customer Wait Time
    The CWT metric did not provide the Office of the Secretary of Defense with the
    ability to measure whether the length of time to satisfy a requisition had an effect
    on operational readiness. The established CWT business rules require the
    Services to compute and report the number of days it takes them to satisfy a
    requisition. Consequently, DoD officials only tracked changes in CWT days and
    trends from one Military Department to another. The CWT metric did not allow
    DoD officials to measure the effects of CWT performance on the operational
    readiness of equipment. Knowing whether CWT had increased or decreased from
    one year to the next did not provide DoD officials with data on how effective the
    supply system was in supporting the warfighter and whether resources were being
    used effectively. By defining and collecting CWT information on high priority
    requisitions, DoD will be able to track CWT trends and determine their effect on
    readiness.

Conclusion
    GAO identified the process for managing the supply chain as one of the high-risk
    areas that needed to function in the most economical, efficient, and effective
    manner possible. Since 2000, DoD officials established a CWT Committee and
    published instructions and business rules for CWT as one effort to correct the
    long-standing problems associated with supply chain management. However,
    although these actions and CWT information were generally accurate, the CWT
    Committee did not link CWT days with readiness or measure the effectiveness of
    supply chain management. DoD needs to take additional steps to link CWT
    performance to the operational readiness of equipment and the Marine Corps
    needs to submit only critical transactions initiated at the organizational level in its
    CWT.

                                           7

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of the Principal Assistant Deputy Under
    Secretary of Defense (Logistics and Materiel Readiness) comments, we revised
    Recommendation 2. to include only transactions at the organization level in
    calculating the Customer Wait Time.

    1. We recommend that the Deputy Under Secretary of Defense, Logistics
    and Materiel Readiness:
           a. Revise the business rules for customer wait time to define high
    priority requisitions, and require the Services to submit high priority
    transactions separately.

           b. Collect each Services’s operational readiness rates and customer
    wait times and analyze them to determine the effect of customer wait time on
    readiness.


    Principal Assistant Deputy Under Secretary of Defense ( Logistics and
    Materiel Readiness) Comments. The Principal Assistant Deputy Under
    Secretary of Defense (Logistics and Materiel Readiness) responding for the
    Deputy Under Secretary of Defense (Logistics and Materiel Readiness) concurred
    with Recommendation 1.a. He stated that the Services submit high priority
    transactions separately and the Deputy Under Secretary of Defense (Logistics and
    Materiel Readiness) built a drill down tool that defines high priority requisitions
    as those that have an urgent need. The tool is now fully operational.

    The Principle Assistant Deputy Under Secretary partially concurred with
    Recommendation 1.b. He stated that while CWT and operational readiness are
    two of the Department’s key metrics, CWT for spares is a small piece of what
    affects operational readiness. Therefore, determining the effect of CWT on
    readiness in not feasible. However, CWT and operational readiness will continue
    to be a key DoD metric and each will be analyzed as part of the overall logistics
    performance metrics framework.

    Audit Response. Although the Principle Assistant Deputy Under Secretary’s
    comments concurred with Recommendation 1.a. and partially concurred with
    Recommendation 1.b., his planned action was not responsive. Concerning
    Recommendation 1.a., the Principle Assistant Deputy Under Secretary did not
    address revising the business rules to define high priority requisitions. For
    Recommendation 1.b., the Principle Assistant Deputy Under Secretary stated that
    determining the effect of CWT on readiness is not feasible. However, he stated
    that CWT and operational readiness will be analyzed as part of the overall
    logistics performance metric. His response did not indicate how his analysis
    would tie CWT to operational readiness. We request that the Principal Assistant
    Deputy Under Secretary of Defense ( Logistics and Materiel Readiness) Principle
    provide additional comments on the recommendation by August 9, 2007.




                                         8

Director of Supply and Maintenance, Office of the Deputy Chief of Staff,
G-4, Department of the Army Comments. We received unsolicited comments
from the Director of Supply and Maintenance, Office of the Deputy Chief of
Staff. The Director of Supply and Maintenance comments concurred with
Recommendation 1.a. and 1.b. Concerning Recommendation 1.a., she stated that
the Army already submits high priority requisitions separately from routine
requisitions, but does not measure CWT metrics by separating them. The Army
measures Authorized Stockage Level by routine fill rates and high priority fill
rates and is developing a process to determine readiness drivers and establish
appropriate goals. Concerning Recommendation 1.b., the Director of Supply and
Maintenance, stated that the Army is reviewing the feasibility of using fill rates by
weapon system. However, the challenge is that weapon systems and repair parts
can apply to several platforms, and the Army’s information system cannot track
CWT by platforms.

2. We recommend that the Marine Corps Logistics Command submit only
transactions initiated at the organization level for calculating customer wait
time.


Principal Assistant Deputy Under Secretary of Defense (Logistics and
Materiel Readiness) Comments. Although not required to comment on
Recommendation 2., the Principle Assistant Deputy Under Secretary stated that
CWT is the time it takes from customer order to receipt regardless of who fills the
order. Therefore, both retail and wholesale transactions are included in the
metrics.

Audit Response. Concerning Recommendation 2., we agree with the Principal
Assistant Deputy Under Secretary’s comments that CWT is the time it takes from
customer order to customer receipt, regardless of who fills the order.
Accordingly, we made appropriate changes to the finding and Recommendation 2.
to clarify the point. However, some transactions that the Marine Corps included
in its CWT calculations were transactions for replenishing stock and not for filling
orders generated by maintenance organizations. These customers are responsible
for maintaining assigned equipment including inspecting, servicing, lubricating,
adjusting, and replacing parts, minor assemblies, and subassemblies. To be
consistent with the other Military Departments, the Marine Corps should remove
these transactions from the CWT metric. This action would provide DoD
officials with uniform results for measuring CWT. We recognize that, although
the Marine Corps Logistics Command’s CWT calculations included requisitions
for stock replacement, it did not materially affect the CWT calculation at the DoD
level. We request that the Principal Assistant Deputy Under Secretary of Defense
(Logistics and Materiel Readiness) provide additional comments on the revised
recommendation by August 9, 2007.

Marine Corps Logistics Command Comments. We did not receive
management comments from the Marine Corps Logistics Command. We request
that the Marine Corps provide comments on the final report by August 9, 2007.




                                     9

Appendix A. Scope and Methodology
   We reviewed policy guidance and documentation dated from March 2000 through
   February 2006 related to CWT. Specifically, we reviewed the Deputy Secretary
   of Defense Reform Initiative Directive Number 54, “Logistics Transformation
   Plans,” March 23, 2000, and DoD Instruction 4140.61, “Customer Wait Time and
   Time Definitive Delivery,” December 14, 2000.

   To accomplish our specific objectives, we met with officials from the Office of
   the Assistant Deputy Under Secretary of Defense (Supply Chain Integration), the
   Joint Staff (J4), the Transportation Command, the Office of the Deputy Chief of
   Staff for Logistics, (Army), the U.S. Army Forces Command, the U.S. Army
   Special Operations Command, the Installation Management Agency, the U.S.
   Army Aviation and Missile Command, the Army contractor responsible for
   compiling and reporting the overall CWT statistics to DoD, the Marine Corps
   Office of Installations and Logistics, the Marine Corps Logistics Command, and
   the Marine Corps Forces, Pacific.

   We reviewed the adequacy of management controls and management’s self
   assessment over supply chain management. Specifically, we reviewed the
   methodology used to compute and report CWT days for the Army and Marine
   Corps organizations included in the audit. We limited our review to the Army
   and Marine Corps organizations because the Army processed the highest number
   of CWT transactions during FY 2005, approximately 76 percent, and the Marine
   Corps reported the highest number of CWT in days. Specifically, we reviewed
   the procedures for computing and reporting CWT.

   We obtained information on Army CWT transactions from the Army contractor
   responsible for compiling, computing, and reporting the actual CWT days. We
   obtained similar information for the Marine Corps from the Marine Corps
   Logistics Command, Albany, Georgia.

   Using statistical sampling techniques, we randomly selected 1,300 CWT
   transactions reported by the 25 Army organizations (five installations) and
   800 transactions reported by the 80 Marine Corps organizations (see Appendix B)
   to determine whether they followed established CWT business rules and
   accurately computed and reported the CWT days to DoD officials. We selected
   the 25 Army organizations based on the total number of CWT transactions
   submitted during the fourth quarter of FY 2005. For example, we identified the
   five installations that processed the greatest number of CWT transactions. Within
   each of the installations, we selected the five organizations that processed the
   greatest number of CWT transactions. We selected the Marine Corps
   organizations at random without regard to the number of transactions processed.
   (See Appendix D for the sampling plan.)

   After our site visits, one of the selected Army and five Marine Corps
   organizations deployed to Iraq and therefore were excluded from the sample. To
   maintain the integrity of the sample, we dropped two of the Army organizations
   from our sample because they did not maintain hard copies of the receipt
   documents and we could not validate the accuracy of those transactions.


                                      10

We performed this audit from June 2005 through January 2007 in accordance
with generally accepted government auditing standards. We collected the
information for the audit through meetings, e-mails, and briefings with Office of
the Secretary of Defense and Army and Marine Corps officials or their support
contractors.

Scope Limitations. The audit included closed CWT transactions processed
during the fourth quarter of FY 2005 for selected Army and Marine Corps
organizations based in the continental United States. The audit also included
open CWT transactions obtained from the Army and Marine Corps as of
January 9, 2006, and December 6, 2005, respectively. We did not include any
organizations outside the continental United States in the sample. Our review of
the reporting process covered the FYs 2002 through 2005.

Use of Computer-Processed Data. We relied on data from the Army’s
Integrated Logistics Analysis Program, the Marine Corps Standard Accounting
Supply System, and the Marine Corps Equipment Information Tool, together with
data generated from the Defense Automated Addressing System Center and the
Defense Logistics Agency’s Distribution Standard System Materiel Release Order
Tracking System. We did not perform a formal reliability assessment of these
systems. However, nothing came to our attention as a result of specified
procedures that caused us to doubt the reliability of the computer processed data.

Use of Technical Assistance. Personnel from the Quantitative Methods Division,
Office of the Inspector General assisted in developing the statistical sampling
analysis presented in this report.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Supply Chain Management high-risk area.

Prior Coverage. No prior coverage has been conducted on the CWT during the
last 5 years.




                                    11

Appendix B. 	Army and Marine Corps
             Organizations Included
             in the Sample

Army

                Unit Identification
Installation       Codes (UIC)                 Organizations Visited or Contacted
                     W36RJP
                                      XR W0U3 IMMD DS GS
                     W81Y2D           XR 0507 CS GRP HHC SPT GP CORP
Fort Bragg
                     W912UD           XR W0H9 ELE OLR BR MAINT FT BRAGG
                     W36BY6           XR 0407 CS BN CO B FIELD MNT
                     W801DU           XR 0503 OD CO REAR DET
                     W912UF           AVN RESET PGM DOL FT CAMPBELL
                     W912UA           AVN RESET PGM ALMD DOL FT CAMPBELL
Fort Campbell        W813G1           SR W0U4 AVN LOG DIV
                     W80QGZ           XR 0160 AV BN 01 CO F AVN MAIT
                     W34GM2           XR W0U4 INSTL MAINT DOL
                     W91JKB           XR 0003 HQ HHC REAR RECON 2
                     W907TL           XR 0001 AV BDE REAR DET
Fort Hood            W91K8Q           XR 0003 HQ HHC REAR RECON 5
                     W91K8P           XR 0003 HQ HHC REAR RECON 4
                     W45CMN           XR W0VC MAINT DIV
                     W80021           XR W6F7 EQUIPMENT SUPPORT GP
                     W91HJD           XR 0249 CS BN CO C HVY MAINT
Fort Irwin           W90BX2           XR W6F7 BULK EQUIPMENT SUPPORT
                     W81R7D           XR W6F7 THEATER SUPPORT COMMAND
                     W91CQR           XR 0221 AR BN 01 HHT TANK
                     W81T77           XR W0VF DOL MAINTENANCE DIV
                     W81X4U           XR W0DA FLRC-POLK
Fort Polk            W42CXC           XR W0VF DOL MAINTENANCE DIV
                     W81T78           XR W0VF DOL MAINTENANCE DIV
                     W68VMM           XR 0094 CS BN BSB FD MNT CO B




                                         12

Appendix B. 	Army and Marine Corps
             Organizations Included
             in the Sample (cont’d)

Marine Corps

  Installation    UIC               Organizations Visited or Contacted
                 M01480   VMU 1 MACG 38
29 Palms         M11204   HQ CO 7th MAR 1st MARDIV
                 M20470   3D Light Armored Recon BN
                 M21410    1st Tank BN 1st MAR Division
                 M21825   CO D 3rd ASLT Amphib BN
                 M28339    CSSG 1 MRC RIP MCAGCC
                 M28349   CSSB 7 MCAGCC
                 M35031    I L EEAP ESD MCAGCC
29 Palms
                 M35033    I L EEAP ESD MCAGCC
                 MMT100   MCCES Supply
                 M11230   1st BN 7th Marines
                 M94700   Maintenance Center Code 884
Albany           M99933    Fleet Spt Div ALB Code 5863
                 M98573   Supply Chain Mgmt Ctr Code E 573
                 M93636    Maintenance Center
Barstow
                 M95000   Base Supply Warehouse 8
                 MMV104   NSE
                 MMV200   MCMC General Account
Blout Island     MMV222    MPS 2 Organic Account
                 MMV400   MPF SMU Using Activity
                 M92502    Blount Island Port T E
Bronx            M21680   Svc CO 6th Communication BN AFRC
Detroit          M14160   1st Battalion 24th Marines
                 M12009   2D Recon BN 2D MARDIV II MEF
                 M12170   2d Marine Division, 2nd Battalion, 8th Marines
                 M12210   2d Marine Division, 1st Battalion, 2nd Marines
                 M12400   2d Combat Engineer BN 2ND MARDIV
                 M20181   CE 26th MEU Det A
Lejeune          M20197   MSSG 22
                 M20198   MSSG 26 26TH MEU Det A
                 M21310    8th Engineer Support BN
                 M21420   2nd Tank Battalion 2ND MARDIV
                 M21810   2nd Assault Amphibian BN 2ND MARDIV
                 M27121    2nd Maintenance BN
                 M27125   Supply Forward Maint A CO




                                      13

Appendix B. 	Army and Marine Corps
             Organizations Included
             in the Sample (cont’d)
Installation    UIC            Organizations Visited or Contacted
               M27127   Ordnance Maintenance CO
               M27128   General Support Maintenance CO
               M27131   2d Transportation Support BN
               M28351   2d FORECON CO II MHG II MEF
Lejeune
               M93135   2d Supply BN (CTEP)
               MMFAF5   2d Maint BN Reparable Issue Point
               MML100   2d Supply BN ISSA
               M00039   MAG 39 HQ MCP
               M00830   MASS 3MACG 38
Pendleton
               M11001    1st MARDIV HQTRS BN(REIN)
               M11009    1st Reconnaissance Battalion
               M11104    HQCO Supply 1st Marines
               M11110   3rd BN 5th MAR Supply
               M11120   1st BN 1st Marines
               M11130    Receiving Officer Bldg 2246
               M11140    1st Battalion 4th MAR
               M11154    5th Marines 1st Marine Division
               M11180    2nd BN 5th Marines
               M11303   HQ BTRY 11th Marines
               M11310   1st BN 11th Marines
               M11340   5th BN 11th Marines
               M11400    1st Combat Eng BN 1st MARDIV FMFPAC
               M14030    4th LARBN 4TH MARDIV REIN FMS USMCR MCRTC
               M20192    3rd Civ Affairs Grp MARFORRES
Pendleton
               M20195   MSSG 11 PSC
               M20196   MSSG 15 Organic Supply
               M20310   15th MEU CE
               M20371    I MEF HQ Group
               M20374   MC SOCOM Det One
               M20450   1st Light Armored Recon BN
               M21300   7th Engr Spt BN
               M21610    1st Anglico 1 MEF
               M21670    9th Comm BN FMFPAC
               M21820   3d AABN 1st Marine Division
               M28310    1st Supply BN 1st MLG
               M28321    1st Maint BN Supply
               M28326    MTMCO 1st Maint BN 1st FSSG
               M28327   OMC 1st Maint BN 1st MLG



                                14

Appendix B. 	Army and Marine Corps
             Organizations Included
             in the Sample (cont’d)
Installation    UIC     Organizations Visited or Contacted
Pendleton      M28331   1st Maint BN 1st FSSG MARFORPAC
               M28333   CSSB 1 1st FSSG
               M28350   1st Force Recon BN
               M97111    Med Log CO 1st Sup BN
Pendleton
               MMC100   SMU General Acct 1st Sup BN 1st FSSG
               MMC199   Training Allowance Pool 1st Sup BN 1st FSSG
               MMFAG8   SMU Reparable Issue Point 1st Sup BN




                                   15

Appendix C. 	Customer Wait Time Process,
             Sample Methodology, and Results
           Army CWT Computation and Sample. We reviewed the Army process for
           computing CWT days and selected a sample of closed customer requisitions for
           the fourth quarter of FY 2005 to determine the accuracy of the CWT information
           reported. See Appendix B for a list of Army and Marine Corps organizations
           included in the sample. See Appendix D for the Quantitative Plan and Statistical
           Analysis and Interpretation for the Army and the Marine Corps.

                    Army Process for Computing CWT Days. The Army follows the CWT
           Committee’s business rules established in 2000. Officials stated that Army
           organizations compute CWT days by subtracting the request date from the receipt
           date of the materiel. The CWT calculation includes only retail supply
           transactions recorded in the Army’s standard retail supply system, which includes
           detailed information on both request and receipt transactions. The Army
           consolidates the information from the retail supply system each day and transmits
           it to the Integrated Logistics Analysis Program, which is a database that includes
           information on requisitions, maintenance, financial transactions, and document
           histories. Using the requisition dates with the receipt dates that it records, the
           Integrated Logistics Analysis Program computes the monthly CWT and transmits
           the information to the Defense Automated Addressing System Center. For this
           audit, we considered transactions to be open if there was a valid requisition in the
           Integrated Logistics Analysis Program but no receipt. We considered a
           transaction to be closed if there was a request and a receipt recorded in the
           Integrated Logistics Analysis Program.

                   Accuracy of Army Closed Transactions. To verify the accuracy of the
           reported CWT, the Integrated Logistics Analysis Program provided us with a
           database of the 1,370,924 transactions it processed during the fourth quarter of
           FY 2005. We selected five installations that processed the largest number of
           CWT transactions. Within each of the installations, we selected five
           organizations that processed the greatest number of processed CWT transactions.
           We statistically selected 1,300 requisitions representing about $1.5 million in
           spare and repair parts. We subsequently eliminated one organization from our
           sample because it was being deployed to Iraq. Two organizations were
           eliminated because Army contractors did not retain the documentation for the
           150 requisitions. These organizations did not represent the entire population and
           therefore we eliminated them from the sample, reducing it to 1,150. Thus, the
           remaining 22 organizations processed 142,481 requisitions during the fourth
           quarter of FY 2005. During our site visits, we obtained copies of the available
           receipt documents,3 and compared the date recorded on the requisitions with the
           date recorded on the receipt document. We then compared the results to the CWT
           days in the Integrated Logistics Analysis Program.


3
    The receipt documents reviewed included a DD Form 1348-1A, Issue Release/Receipt Documents, a
    signed receipt document from the transportation carrier, or a packing slip annotated with the date that the
    materiel was received by the organization.


                                                       16

Appendix C. 	Customer Wait Time Process,
             Sample Methodology, and Results
             (cont’d)
           Of the 1,150 requisitions, 57 did not have receipts because the organizations could
           not locate the documentation. For 894 of the 1,093 transactions with receipts, the
           CWT days were correct, but the remaining 199 transactions were not processed in
           a timely manner.

           As a result, the average CWT days for the 199 transactions for the
           22 organizations were 15.08 days instead of the reported 15.90 days. Our
           calculation recognizes the correct computation of CWT days for all
           1,093 transactions. Although the days reported to DoD were incorrect, the
           methodology that the organizations used was in accordance with the CWT
           Committee’s business rules.

           Table C-1 shows our sample results projected to the entire population of the
           22 organizations and 142,481 transactions.

                             Table C-1 Projection of Army Closed Requisitions

                                 Requisitions recorded correctly      95,228
                                 Requisitions not recorded timely     41,026
                                 Requisitions could not be located     6,228
                                  Total 	                            142,4814

           Marine Corps CWT Computation and Sample. We reviewed the Marine
           Corps process for computing CWT days and selected a sample of closed
           requisitions for the fourth quarter FY 2005.

                   Marine Corps Process for Computing CWT Days. The Marine Corps
           logistics personnel compute CWT days by subtracting the request date from the
           receipt date of the materiel. The CWT calculation includes retail supply
           requisitions recorded in the Marine Corps standard accounting supply system and
           wholesale transactions processed through the Defense Automatic Addressing
           System Center. Wholesale requisitions are filled by the Inventory Control Points
           and not the local supply organization. Each month, using an “ad hoc” CWT
           program, the Marine Corps Logistics Command filters out specific requisitions,
           such as non-Marine Corps requisitions, and computes the CWT days. It submits
           the data to the Defense Automatic Addressing System Center and posts the CWT
           information on the Marine Corps Logistics Command’s Web site.




4
    The total is off by one due to rounding.



                                                  17

Appendix C. 	Customer Wait Time Process,
             Sample Methodology, and Results
             (cont’d)
          Accuracy of Marine Corps Closed Requisitions. The Marine Corps
   Logistics Command in Albany, Georgia, is responsible for populating and
   maintaining the CWT requisition database. For the fourth quarter of FY 2005, the
   Marine Corps reported a total of 51,062 requisitions in its monthly CWT
   database. Using statistical sampling techniques, we randomly selected
   800 requisitions from the database to verify the accuracy of the reported CWT
   days and visited 8 different installations representing 80 organizations. We
   compared the CWT days reported to DoD with the materiel receipt date. We
   eliminated five organizations because they were deployed to Iraq, which reduced
   the sample size to 773 requisitions.

   Of the 773 requisitions, we validated that the Marine Corps correctly computed
   CWT days for 16 transactions, incorrectly computed 673 transactions, and could
   not locate support documentation for 84 transactions. Also, our calculations of
   CWT days for the Marine Corps requisitions showed that the average CWT
   reported by the 75 organizations, excluding the 264 wholesale replenishment
   requisitions, was 25.84 days and not the reported 31.58 days.

   Table C-2 shows our sample results projected to the entire population of the
   75 organizations and the 51,062 transactions.

            Table C-2. Projection of Marine Corps Closed Requisitions

                  Requisitions recorded correctly                1,255
                  Requisitions not recorded timely              44,258
                  Requisitions could not be located              5,549
                   Total 	                                      51,062




                                       18

Appendix D. 	Quantitative Plan and Statistical
             Analysis and Interpretation for the
             Army and Marine Corps

Army
    Objective. The audit objective was to evaluate DoD implementation of a
    standard for customer wait time.

    Population. We used the five Continental United States installations (Fort Hood,
    Fort Campbell, Fort Bragg, Fort Polk and Fort Irwin) that had the largest number
    of transactions. Within each installation we used the five UICs with the largest
    number of transactions. The population initially consisted of 218,399 transactions,
    but we removed two of the UICs that were out of scope, leaving a population of
    142,481 requisitions and 22 UICs.

    Measures. The attribute measure of correct or incorrect was used to indicate
    whether the date of receipt in the system was the same as the date of the signed
    receipt.

    Parameters. We used a 90 percent confidence level for the statistical estimate.

    Sample Plan. We used a two-stage stratified sample design. Stage 1 consisted of
    the five installations with the highest number of requisitions. Stage 2 consisted of
    the five UICs within each installation that had the highest number of requisitions,
    except for Fort Hood which had three UICs. We used a simple random sample
    without replacement to select requisitions from each of the UICs, and we
    determined appropriate sample sizes for each UIC based on our calculations, the
    what-if analysis we performed, and our professional judgment. We used SAS
    version 9.1 random number generator to select the random samples.




                                        19

Appendix D. 	Quantitative Plan and Statistical
             Analysis and Interpretation for the
             Army and Marine Corps (cont’d)
         Installation               UIC          Sample(n) Population (N)

      Bragg/CWT-1                W36RJP               75            8,827
      Bragg/CWT-2                W81Y2D               50            3,526
      Bragg/CWT-3                W912UD               50            2,829
      Bragg/CWT-4                W36BY6               50            2,370
      Bragg/CWT-5                W801DU               50            1,920
      Campbell/CWT-1             W912UF               75           16,734
      Campbell/CWT-2             W912UA               50            7,583
      Campbell/CWT-3             W813G1               50            3,376
      Campbell/CWT-4             W80QGZ               50            2,725
      Campbell/CWT-5             W34GM2               50            1,946
      Hood/CWT-2                 W907TL               50           32,910
      Hood/CWT-4                 W91K8P               50           18,258
      Hood/CWT-5                 W45CMN               50           17,310
      Irwin/CWT-1                W80021               50            4,981
      Irwin/CWT-2                W91HJD               50            1,429
      Irwin/CWT-3                W90BX2               50            1,363
      Irwin/CWT-4                W81R7D               50            1,312
      Irwin/CWT-5                W91CQR               50            1,285
      Polk/CWT-1                 W81T77               50            1,953
      Polk/CWT-2                 W81X4U               50            4,646
      Polk/CWT-3                 W42CXC               50            2,352
      Polk/CWT-4                 W81T78               50            2,846
        Total 	                  22 UICs           1,150          142,481

     Initially, we selected 24 UICs from which we selected a simple random sample.
     Two of the UICs at Fort Hood, W91JKB and W91KBQ, were anomalies because
     of contractor changes and the record retention policy and did not fairly represent
     overall Army organizations that we visited. Therefore we removed the two UICs
     from the sample and population, leaving 22 UICs.

Statistical Analysis and Interpretation
     Transactions Recorded Correctly. Based on the audit results of 660 errors that
     we provided to Quantitative Methods Division analysts, we calculated the
     following statistical projections.




                                          20

Appendix D. 	Quantitative Plan and Statistical
             Analysis and Interpretation for the
             Army and Marine Corps (cont’d)
                                              90 Percent Confidence Interval
                                              Lower        Point     Upper
   Requisitions recorded correctly            Bound      Estimate    Bound
   Error rate                                 64.3%        66.8%     69.3%
   Errors                                     91,684      95,228     98,771

    We are 90 percent confident that the error rate is between 64.3 percent and
    69.3 percent, and we are 90 percent confident that the total number of errors is
    between 91,684 and 98,771.

    Requisitions not recorded timely. Based on the audit results of 433 errors that
    the audit team provided to Quantitative Methods Division analysts, we calculated
    the following statistical projections.

                                            90 Percent Confidence Interval
                                            Lower       Point      Upper 

    Requisitions not recorded timely        Bound      Estimate    Bound 

    Error rate 	                            27.0%       28.8 %     30.5%
    Errors 	                                38,532      41,026     43,519

    We are 90 percent confident the error rate is between 27 percent and 30.5 percent
    and we are 90 percent confident the total number of errors is between 38,532 and
    43,519.

    Requisitions that could not be located. Based on the audit results of 57 errors
    that the audit team provided to Quantitative Methods Division analysts, we
    calculated the following statistical projections.

                                           90 Percent Confidence Interval
                                           Lower        Point      Upper
    Requisitions that could not be located Bound       Estimate    Bound
    Error rate 	                            2.6%         4.4%       6.2%
    Errors 	                                3,665       6,228      8,791

    We are 90 percent confident that the error rate is between 2.6 percent and
    6.2 percent and we are 90 percent confident that the total number of errors is
    between 3,665 and 8,791.




                                        21

Appendix D. 	Quantitative Plan and Statistical
             Analysis and Interpretation for the
             Army and Marine Corps (cont’d)
    Scan date equal to or greater than hand receipt date. Based on the audit
    results of 894 errors that we provided to Quantitative Methods Division analysts,
    we calculated the following statistical projections.

                                               90 Percent Confidence Interval
    Scan date equal to or greater than          Lower       Point      Upper
    hand receipt date                           Bound     Estimate     Bound
    Error rate                                  75.4%       77.8%      80.2%
    Errors                                     107,469     110,883    114,298

    We are 90 percent confident that the error rate is between 75.4 percent and
    80.2 percent, and we are 90 percent confident that the total number of errors is
    between 107,469 and 114,298.

    Calculated Army CWT days. We calculated the following descriptive statistics
    based on the reported Army CWT days in the 142,481 population.

    Calculated Army CWT days in population	                          Days
    Mean                                                          	15.9 days

    Mean audited CWT days. Based on the audit results provided to Quantitative
    Methods Division analysts by the audit team, we calculated the following
    statistical projections.

                                               90 Percent Confidence Interval
                                               Lower       Point      Upper
    Mean audited CWT days                      Bound     Estimate     Bound
    Mean days                                  13.49      15.08       16.67 


    We are 90 percent confident that the mean days are between 13.49 and 16.67. 





                                         22

Appendix D. 	Quantitative Plan and Statistical
             Analysis and Interpretation for the
             Army and Marine Corps (cont’d)
    Mean Army CWT days. Based on the audit results provided to Quantitative
    Methods Division analysts by the audit team, we calculated the following
    statistical projections.

                                          90 Percent Confidence Interval
                                          Lower       Point      Upper
    Mean Army CWT days                    Bound      Estimate    Bound
    Mean days 	                           13.66       15.25      16.83

    We are 90 percent confident that the mean days are between 13.66 and 16.83.

    Mean audited CWT days for Issue Priority Group items. Based on the audit
    results that the audit team provided to Quantitative Methods Division analysts, we
    calculated the following statistical projections.

                                           90 Percent Confidence Interval
    Mean audited CWT days for Issue        Lower       Point      Upper 

    Priority Group items                   Bound      Estimate    Bound 

    Mean days 	                            14.96       16.96      18.97

    We are 90 percent confident that the mean days are between 14.96 and 18.97.

Marine Corps
    Objective. The audit objective was to evaluate DoD implementation of a
    standard customer wait time.

    Population. The population consisted of closed order transactions for the fourth
    quarter of FY 2005 for Marine Corps Continental United States locations. The
    population consisted of 52,845 transactions at 53 locations.




                                        23

Appendix D. 	Quantitative Plan and Statistical
             Analysis and Interpretation for the
             Army and Marine Corps (cont’d)
    Measures. The attribute measure of correct or incorrect was used to indicate
    whether the date of receipt was the same as the date of the signed receipt.

    Parameters. We used a 90 percent confidence level for the statistical estimate.

    Sample Plan. We used a two-stage sample design. Stage 1 was a probability
    proportional to transaction size randomly selected by closed transactions with
    replacement. A total of 40 locations were randomly selected and 8 locations were
    unique. Stage 2 consisted of a simple random sample without replacement of
    20 for each of the 40 locations. We determined appropriate sample sizes for each
    location based on our calculations, the what-if analysis we performed, and our
    professional judgment. We used SAS version 9.1 random number generator to
    select the random samples.




                                       24

Appendix D. 	Quantitative Plan and Statistical
             Analysis and Interpretation for the
             Army and Marine Corps (cont’d)
                                                              Total         Unique
                   Population                                Sample       Population
                  Transactions   Population Transactions    Population   Sample Unit     Sampled
    Location       at Location    at Sampled Locations     Sample Unit     Sampled     Transactions
 PENDLETON          18,247               18,247               20             1            400
 LEJEUNE            10,492               10,483                4             2             80
 BARSTOW             7,072                7,072                4             3             80
 ALBANY              7,017                7,017                4             4             80
 29 PALMS            3,280                3,280                3             5             60
 BLOUNT IS           2,502                2,502                3             6             60
 SAN DIEGO             418                    0                0             0              0
 EL TORO               415                    0                0             0              0
 YUMA                  414                    0                0             0              0
 PORTLAND              291                    0                0             0              0
 ALAMEDA               264                    0                0             0              0
 BRIDGETON             261                    0                0             0              0
 DETROIT               203                  203                1             7             20
 CHERRY PT             194                    0                0             0              0
 CHARLOTTE             168                    0                0             0              0
 TUSTIN                168                    0                0             0              0
 BEAUFORT              134                    0                0             0              0
 NEW ORLEANS           129                    0                0             0              0
 VIRGINIA BEACH        122                    0                0             0              0
 MINNEAPOLIS           114                    0                0             0              0
 FT LEWIS              108                    0                0             0              0
 ENCINO                104                    0                0             0              0
 LONG BEACH              92                   0                0             0              0
 BUCKLEY ANG             86                   0                0             0              0
 NO NAME                 81                   0                0             0              0
 SANTA ANA               69                   0                0             0              0
 KANSAS CITY             67                   0                0             0              0
 MARIETTA                50                   0                0             0              0
 HIGHWOOD                46                   0                0             0              0
 BRONX                   36                  36                1             8             20
 SAN ANTONIO             34                   0                0             0              0
 WYOMING                 32                   0                0             0              0
 MIRAMAR                 22                   0                0             0              0
 MT CLEMENS              20                   0                0             0              0
 WICHITA                 19                   0                0             0              0
 CHICAGO                 17                   0                0             0              0
 BALTIMORE               13                   0                0             0              0
 NEWPORT NEWS            13                   0                0             0              0
 RED BANK                 7                   0                0             0              0
 FT WORTH                 5                   0                0             0              0
 BROOK PARK               4                   0                0             0              0
 NEW RIVER                4                   0                0             0              0
 GARDEN CITY              3                   0                0             0              0
 W PALM BEACH             3                   0                0             0              0
 WILLOW GROVE             2                   0                0             0              0
 PHILADELPHIA             1                   0                0             0              0
 SAN BRUNO                1                   0                0             0              0
 WESTOVER AFB             1                   0                0             0              0
     Total           52,845              48,840               40             8            800




                                                25

 Appendix D. 	Quantitative Plan and Statistical
              Analysis and Interpretation for the
              Army and Marine Corps (cont’d)

Statistical Analysis and Interpretation
      Requisitions recorded correctly. Based on the audit results that the audit team
      provided to Quantitative Methods Division analysts, we calculated the following
      statistical projections.

                                             90 Percent Confidence Interval
                                             Lower        Point     Upper
      Requisitions recorded correctly        Bound      Estimate    Bound
      Error rate                              1.40%      2.38%      3.35%
      Errors                                  739        1,255      1,771

      We are 90 percent confident that the error rate is between 1.40 percent and
      3.35 percent, and we are 90 percent confident that the total number of errors is
      between 739 and 1,771.

      Requisitions not recorded timely. Based on the audit results that the audit team
      provided to Quantitative Methods Division analysts, we calculated the following
      statistical projections.

                                             90 Percent Confidence Interval
                                             Lower        Point      Upper
       Requisitions not recorded timely      Bound      Estimate     Bound
       Error rate 	                          80.76%      83.75 %     86.74%
       Errors 	                              42,680      44,258      45,835

      We are 90 percent confident that the error rate is between 80.76 percent and
      86.74 percent, and we are 90 percent confident that the total number of errors is
      between 42,680 and 45,835.

      Requisitions that could not be located. Based on the audit results that the audit
      team provided to Quantitative Methods Division analysts, we calculated the
      following statistical projections.

                                             90 Percent Confidence Interval
                                             Lower        Point      Upper
      Requisitions not located               Bound      Estimate     Bound
      Error rate                              7.99%      10.50%      13.01% 

      Errors                                  4,221      5,549       6,877 





                                          26

Appendix D. 	Quantitative Plan and Statistical
             Analysis and Interpretation for the
             Army and Marine Corps (cont’d)
    We are 90 percent confident that the error rate is between 7.99 percent and
    13.01 percent, and we are 90 percent confident that the total number of errors is
    between 4,221 and 6,877.

    Mean audited CWT days. Based on the audit results provided to Quantitative
    Methods Division analysts by the audit team, we calculated the following
    statistical projections.

                                           90 Percent Confidence Interval
                                           Lower       Point      Upper
     Mean audited CWT days                 Bound       Estimate   Bound
     Mean days                             21.85        24.34     26.83

    We are 90 percent confident the mean days are between 21.85 and 26.83.




                                        27

Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organization
Director, Defense Logistics Agency

Non-Defense Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations

                                          28

Appendix E. Report Distribution (cont’d)
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        29

     Principal Assistant Deputy Under Secretary of
                   Defense (Logistics and Materiel
                   Readiness) Comments

                                OFFICE OF T H E U N D E R SECRETARY O F DEFENSE
                                                3 0 0 0 DEFENSE PENTAGON
                                               WASHINGTON DC 2 0 3 0 1 - 3 0 0 0



         ACQUISITION, 

        TECHNOLOGY 

        AND LOGISTICS




               MEMORANDUM FOR PROGRAM DIRECTOR, READINESS AND OPERATIONS
                                SUPPORT

               THROUGH: DIRECTOR, ACQUISITION RESOURCES A N D ANALYSIS

               SUBJECT: Response to DODIG Draft Report D2005-D000LD-0129, "Report on
                        Uniform Standards for Customer Wait Time

                  As requested, I am providing responses to the recommendations contained in the
               subject report. The DODIG recommendations and the DoD response to each of the
               recommendations are provided below:

                    D o D I G R e c o m m e n d a t i o n 1: We recommend that the Deputy Under Secretary of
                    Defense, Logistics and Materiel Readiness:

                    a.	 Revise the business rules for customer wait time to define high priority
                        requisitions, and require the Services to submit high priority transactions
                        separately.

                    DoD Response: Concur. The Military Services submit high priority transactions
                    separately, and the DUSD(L&MR) has built a drill down tool that defines high
                    priority requisitions as those that have Urgency of Need equal to " A . " This drill tool
                    is now fully operational.

                    b .	 Collect each Services' operational readiness rates and customer wait times and
                         analyze them to determine the effect of customer wait time on readiness.

                   DoD Response: Partially concur. While customer wait time and operational
                   readiness are two of the Department's key metrics, customer wait time for spares is a
                   small piece of what effects operational readiness. Therefore, determining the effect of
                   customer wait time on readiness is not feasible. However, customer wait time and
                   operational readiness will continue to be two of the Department's key metrics and
                   each will be analyzed as part of the overall logistics performance metrics framework.

                    DoDIG R e c o m m e n d a t i o n 2: We recommend that the Marine Corps Logistics
                    Command submit only retail transactions for use in calculating customer wait time.


[Recycling symbol]
                                                              31 

Final Report
 Reference




Revised report     DoD Response: Nonconcur. Customer wait time is the time it takes from customer
text on pages i,   order to customer receipt, regardless of who fills the order. Therefore, both retail and
5,8,and 9 and      wholesale transactions are included in the customer wait time metric.
recommendation
to the Marine      My point of contact, Mrs. Debra Bennett, can be reached at 703-604-0098 X137 or
Corps Logistics    debra.bennett@osd.mil if you have any questions regarding this response.
Command.




                                                          Alan F. Estevez
                                                          Principal Assistant Deputy Under of
                                                            Defense (Logistics and Materiel Readiness)




                                                       32
Department of Army Comments


                                    DEPARTMENT OF THE ARMY
                                OFFICE OF THE DEPUTY CHIEF OF STAFF, G-4
                                           500 ARMY PENTAGON
                                       WASHINGTON, DC 20310-0500




    DALO-SUS


    MEMORANDUM THRU DEPUTY CHIEF OF S T A F F , G 4 , 5 O O ARMY PENTAGON,
    WASHINGTON, D . C .     20310

    FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL, 4 0 0 ARMY NAVY
    DRIVE, ARLINGTON, VA 2 2 2 0 2

    SUBJECT: Report on Uniform Standards for Customer Wait Time (Project No. D 2 0 0 5 ­
    D000LD-0129.000)



    1. This is in response to the Department of Defense Inspector General ( D O D I G ) draft
    report Audit of Customer Wait Time (Enclosure).

    2 . The Office of the Deputy Chief of Staff, G - 4 has reviewed subject draft report and
    concurs with the following comments.

        a. D O D I G recommendation: The Deputy Under Secretary of Defense, Logistics
     and Materiel Readiness:

             ( 1 ) Revise the business rules for Customer Wait Time (CWT) to define priority
    requisitions, and require the Services to submit high priority transactions separately.
    Army G-4 response: The U.S. Army already submits high priority requisitions
    separately from routine requisitions, but the U.S. Army does not currently measure
    CWT metrics by separating high priority and routine requisitions.

            (2) The U.S. Army is now working a process to target inventory stockage based
     on readiness drivers. Currently, we measure our Authorized Stockage Level (ASL)
     performance by routine fill and high priority fill rates. We are now in the process of
     developing a manner to look at our fill rate for readiness drivers and establishing
     appropriate goals.

        b. DoDIG recommendation: Collect each Service's operational readiness rates
     and customer wait times and analyze them to determine the effect of customer wait time
     on readiness.

            Army G-4 response: Army G - 4 concurs this is a good recommendation. We
     are reviewing the feasibility of looking at fill rates by weapon system. Our challenge is
     that we have weapon systems and repair parts that apply to several platforms and our
     information systems are not set-up to differentiate in a manner that allows us to track
     CWT against specific platforms.




                                                  33 

DALO-SUS
SUBJECT: Report on Uniform Standards for Customer Wait Time (Project No. D2005
D000LD-0129.000)


3. Point of contact is Mrs. Renee ' Mosher, at (703) 692-9561, or e-mail:
renee.mosher@hqda.army.mil.




Encl                                        SARAH FINNICUM
                                            Director of Supply and
                                               Maintenance




                                           2




                                          34
Team Members
   The Department of Defense Office of the Deputy Inspector General for Auditing,
   Readiness and Operations Support prepared this report. Personnel of the Department
   of Defense Office of Inspector General who contributed to the report are listed below.

   Wanda A. Scott 

   Robert F. Prinzbach, II 

   Thomas S. Bartoszek 

   John W. Henry 

   James J. McDermott 

   Paul A. Hollister 

   Herman Tolbert 

   Michael Talevi 

   Brian S. Leinbach 

   Maria C. Kadlec 

   Renee Schoenberg

   Jacqueline N. Pugh

   Lusk F. Penn 

   James Hartman 

